No.

In the Supreme Court of the United States
EAGLE TRUST FUND, JOHN F. SCHLAFLY & EAGLE FORUM
EDUCATION & LEGAL DEFENSE FUND,
Petitioners,
v.
UNITED STATES POSTAL SERVICE & LOUIS DEJOY, POSTMASTER
GENERAL, IN HIS OFFICIAL CAPACITY,
Respondents.
CERTIFICATE OF SERVICE
The undersigned certifies that, on this 25th day of January 2021, in addition
to filing the accompanying petition for a writ of certiorari and appendix via the
Court’s electronic filing system, one true and correct copy of the foregoing document
was served by U.S. Priority Mail, postage pre-paid, on the following counsel:
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
supremectbriefs@usdoj.gov
Counsel for Respondents
In addition, on this 25th day of January 2021, the following email addresses
have also been served electronically:
SupremeCtBriefs@USDOJ.gov
Pursuant to this Court’s order dated April 15, 2020, the undersigned further
certifies that, on this 25th day of January 2021, an original paper copy was served on
the Court – together with one unbound copy – by Federal Express, next-day delivery

and that petitioners will expeditiously file booklet-from copies of the petition and
appendix if so requested.
Executed January 25, 2021,
Lawrence J. Joseph
________________________________
Lawrence J. Joseph

